TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                 Fiscal Year 2013
                         Statutory Review of Restrictions
                         on Directly Contacting Taxpayers



                                         August 30, 2013

                              Reference Number: 2013-30-080




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                     HIGHLIGHTS


FISCAL YEAR 2013 STATUTORY                              sample of 96 of 72,239 cases closed by Appeals
REVIEW OF RESTRICTIONS ON                               showed that Appeals personnel did not always
DIRECTLY CONTACTING TAXPAYERS                           involve representatives appropriately in some
                                                        key actions.
                                                        In 11 of 96 sampled cases, Appeals personnel
Highlights                                              deviated from procedures by attempting to
                                                        contact the taxpayer directly by telephone or not
Final Report issued on August 30, 2013                  ensuring that copies of taxpayer
                                                        correspondence were sent to the taxpayer’s
Highlights of Reference Number: 2013-30-080             authorized representative. In addition, no
to the Internal Revenue Service Chief, Appeals,         documentation was found in managerial reviews
and the Commissioner, Small Business/Self-              indicating that checks were made to ensure that
Employed Division.                                      Appeals personnel were involving
                                                        representatives in all case actions and providing
IMPACT ON TAXPAYERS                                     representatives copies of all original
IRS personnel are required to stop an interview         correspondence sent to the taxpayers.
if the taxpayer requests to consult with a
                                                        WHAT TIGTA RECOMMENDED
representative and may not bypass a
representative without supervisory approval.            TIGTA recommended that the Chief, Appeals,
Between October 2011 and September 2012,                provide additional guidance to first-line
TIGTA’s Office of Investigations closed 13 direct       managers and Appeals personnel that will
contact complaints involving IRS personnel, of          reinforce the importance of ensuring that
which two employees were disciplined or                 taxpayer representatives are involved in all case
counseled for their actions by IRS management           activities. This will help ensure that the
officials.                                              procedures designed to afford taxpayers their
                                                        right to appropriate and effective representation
WHY TIGTA DID THE AUDIT                                 are followed and properly documented during
This audit was initiated because TIGTA is               the appeals process.
required to annually report on the IRS’s                The IRS agreed with TIGTA’s recommendation
compliance with Internal Revenue Code                   and plans to update the Internal Revenue
Sections 7521(b)(2) and (c). The overall                Manual to clarify front-line managers’
objective of this audit was to determine whether        responsibilities for ensuring that procedures
the IRS complied with the legal guidelines              regarding the direct contact provisions of the
addressing the direct contact of taxpayers and          Internal Revenue Code are followed and
their representatives.                                  reinforce the importance of ensuring that
WHAT TIGTA FOUND                                        representatives are involved in all case
                                                        activities.
The IRS has a number of policies and
procedures in place to help ensure that
taxpayers are afforded the right to designate a
qualified representative to act on their behalf in
dealing with IRS personnel in a variety of tax
matters.
Each year, TIGTA focuses on an office or
function of the IRS that interacts with taxpayers
and their representatives on a routine basis. For
this review, TIGTA analyzed how well the Office
of Appeals (Appeals) has ensured that its
personnel are appropriately including taxpayers’
representatives in its activities. A statistical
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 30, 2013


 MEMORANDUM FOR CHIEF, APPEALS
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Fiscal Year 2013 Statutory Review of Restrictions
                             on Directly Contacting Taxpayers (Audit # 201330008)

 This report presents the results of our review to determine whether the Internal Revenue Service
 complied with legal guidelines addressing the direct contact of taxpayers and their
 representatives as set forth in Internal Revenue Code Sections 7521(b)(2) and (c). The Treasury
 Inspector General for Tax Administration is statutorily required to conduct this audit. This audit
 was conducted as part of our Fiscal Year 2013 Annual Audit Plan and addresses the major
 management challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendation. If you have any questions, please contact me or Nancy A. Nakamura,
 Acting Assistant Inspector General for Audit (Compliance and Enforcement Operations).
                                         Fiscal Year 2013 Statutory Review of
                                     Restrictions on Directly Contacting Taxpayers




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          An Array of Internal Controls Help Ensure Compliance With the
          Direct Contact Provisions of the Internal Revenue Code ............................. Page 3
          Actions Are Needed to Provide Greater Assurance That
          Taxpayer Representatives Are Included in Appeals Case Activities............ Page 7
                    Recommendation 1:........................................................ Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Outcome Measure ................................................................ Page 15
          Appendix V – Previous Audit Reports Related to This
          Statutory Review ........................................................................................... Page 16
          Appendix VI – Glossary of Terms ................................................................ Page 18
          Appendix VII – Management’s Response to the Draft Report ..................... Page 19
             Fiscal Year 2013 Statutory Review of
         Restrictions on Directly Contacting Taxpayers




                Abbreviations

ACDS      Appeals Centralized Database System
I.R.C.    Internal Revenue Code
IRM       Internal Revenue Manual
IRS       Internal Revenue Service
TIGTA     Treasury Inspector General for Tax Administration
                                      Fiscal Year 2013 Statutory Review of
                                  Restrictions on Directly Contacting Taxpayers




                                               Background

Internal Revenue Service (IRS) records show that, in Fiscal Year 2012, approximately
2.2 million individual taxpayers exercised their right to grant power of attorney to an individual
to act on their behalf in dealing with the IRS in a variety of tax matters. These tax matters
include preparing and filing documents for the taxpayer, communicating and corresponding with
the IRS for the taxpayer, and representing the
taxpayer during an audit, collection, or appeal.
                                                                      Taxpayers use Form 2848, Power of
To designate power of attorney authority to a                  Attorney and Declaration of
representative, a taxpayer files Form 2848, Power of           Representative, to designate
Attorney and Declaration of Representative, with the       qualified representatives to act on
IRS. Once received and validated, the IRS records          their behalf in dealing with the IRS
                                                                in a variety of tax matters.
the power of attorney in its Centralized
Authorization File1 system, where it is linked to
other automated information systems that are accessed and used by IRS personnel to identify
authorized representatives. A taxpayer can file a civil suit seeking monetary damages against the
IRS if an IRS employee intentionally disregards these provisions by denying the taxpayer the
right to appropriate representation.
Identifying the authorized representative during a tax matter is critical for IRS personnel because
the Internal Revenue Code (I.R.C.) prohibits disclosure of tax return information to third parties
unless the taxpayer has authorized the IRS to make the disclosure. In addition, the direct contact
provisions of I.R.C. Section (§) 7521 enacted in 1988 as part of the Omnibus Taxpayer Bill of
Rights2 generally:
          Prohibit IRS personnel from bypassing a qualified representative once a taxpayer
           authorizes one to act on his or her behalf and informs the IRS of that authorization.
          Require IRS personnel to stop a taxpayer interview whenever a taxpayer requests to
           consult with a representative.
          Require IRS personnel to obtain their immediate supervisor’s approval to contact the
           taxpayer instead of the representative if the representative is responsible for unreasonably
           delaying the completion of an audit or investigation.




1
    See Appendix VI for a glossary of terms.
2
    Pub. L. No. 100-647, 102 Stat. 3730 (1988) (codified as amended in scattered sections of 5 U.S.C. and 26 U.S.C.).
                                                                                                              Page 1
                                    Fiscal Year 2013 Statutory Review of
                                Restrictions on Directly Contacting Taxpayers



Congress, through the IRS Restructuring and Reform Act of 1998,3 directed the IRS to revise
Publication 1, Your Rights as a Taxpayer, to better inform taxpayers of these rights. In addition,
this act requires the Treasury Inspector General for Tax Administration (TIGTA) to annually
evaluate the IRS’s compliance with the direct contact provisions.
As reported in prior years,4 neither we nor the IRS know with any degree of precision how well
the IRS is complying with direct contact provisions because its management information systems
are not capable of readily identifying situations where a taxpayer is denied the right to
appropriate representation. However, taxpayers’ complaints that allege IRS personnel bypassed
their representatives and contacted them directly are tracked by TIGTA’s Office of
Investigations on the Performance and Results Information System. During Fiscal Year 2012,
the Office of Investigations closed 13 direct contact complaints involving IRS personnel, of
which two employees were disciplined or counseled for their actions by IRS management.5
This is the fifteenth year we have conducted this review. Each year, we focus on an office or
function of the IRS that interacts with taxpayers and their representatives on a routine basis. For
this review, we analyzed how well the Office of Appeals (Appeals) has ensured that its personnel
are appropriately including taxpayers’ representatives in its activities. Many actions taken by the
IRS can be appealed in addition to examination adjustments, such as penalties, interest, trust
fund recovery penalties, offers in compromise, liens, and levies. The Appeals mission is to
resolve tax controversies, without litigation, on a basis which is fair and impartial to both the
Government and the taxpayer in a manner that will enhance voluntary compliance and public
confidence in the integrity and efficiency of the Service. To accomplish this, Appeals personnel
work with taxpayers and their representatives to resolve the tax disputes. Appeals personnel are
responsible for following IRS policies and guidance pertaining to interactions with taxpayers,
including ensuring that taxpayers are granted their right to representation.
This review was performed with information obtained from the offices of the Commissioner,
Appeals, National Taxpayer Advocate, and Small Business/Self-Employed Division in
Washington, D.C., during the period September 2012 through April 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.


3
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
4
  See Appendix V for a list of previous audit reports related to this review.
5
  Appeals employees were not involved in any of the 13 complaints.
                                                                                                              Page 2
                                 Fiscal Year 2013 Statutory Review of
                             Restrictions on Directly Contacting Taxpayers




                                   Results of Review

An Array of Internal Controls Help Ensure Compliance With the Direct
Contact Provisions of the Internal Revenue Code
Ultimately, the IRS relies on its personnel to properly consider and protect taxpayer rights when
conducting audits, taking collection actions, and resolving tax disputes. To assist IRS and
Appeals personnel in meeting these responsibilities, the IRS has an array of policies, procedures,
and techniques (internal controls) that are in line with the Government Accountability Office’s
Standards for Internal Control in the Federal Government.6
The IRS’s mission statement and supporting policy statements provide guidance nationwide to
IRS personnel who have contact with taxpayers. Figure 1 provides an example of IRS Policy
Statement 5-2, which contains the core principles that underscore the importance of protecting
taxpayer rights as well as providing the public with quality, courteous, and effective assistance in
collecting unpaid taxes.




6
 Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Standards for Internal Control in the Federal Government (Nov. 1999).
                                                                                                   Page 3
                                      Fiscal Year 2013 Statutory Review of
                                  Restrictions on Directly Contacting Taxpayers



                     Figure 1: Core Principles for Collecting Unpaid Taxes

                                         Excerpt From IRS Policy Statement 5-2

                 Principles                                                     Description

       OVERARCHING PRINCIPLES                     All our decisions about collecting must be guided by these principles.
                                                  To the extent that they are, we will succeed in our mission.

       SERVICE AND ASSISTANCE

 All taxpayers are entitled to courteous,         We will actively assist taxpayers who try to comply with the law and
 responsive, and effective service and            work to continually improve the quality of our systems and service to
 assistance in all their dealings with            meet the needs of our customers. All taxpayers, whether delinquent or
 the Service.                                     fully compliant, are entitled to prompt and professional service
                                                  whenever they deal with Service personnel.

            TAXPAYER RIGHTS

 We will observe taxpayers’ rights,               This affirms our commitment to observe both the spirit as well as the
 including their rights to privacy and            letter of all legal requirements, including the Taxpayer Bill of Rights I
 to fair and courteous treatment.                 and II and the IRS Restructuring and Reform Act of 1998. Taxpayers
                                                  will be protected from unauthorized disclosure of information.

                COMPLIANCE

 The public trust requires us to ensure           The public as a whole is our customer, not just delinquent taxpayers.
 that all taxpayers promptly file their returns   Our customers expect us to promote voluntary compliance by ensuring
 and pay the proper amount of tax,                that all promptly pay their fair share.
 regardless of the amount owed.

            CASE RESOLUTION

 While we will actively assist taxpayers          All taxpayers are required to pay by the due date of the return. From a
 to comply, we will also take appropriate         broad range of collecting tools, personnel will select the one(s) most
 enforcement actions when warranted to            appropriate for each case. Case resolution, including actions such as
 resolve the delinquency. To resolve a            lien, levy, seizure of assets, installment agreement, offer in
 case, good judgment is needed to make            compromise, substitute for return, summons, and I.R.C. 6020(b), are
 sound decisions on the appropriate action        important elements of an effective compliance program. When it is
 needed.                                          appropriate to take such actions, it should be done promptly, yet
                                                  judiciously, and based on the facts of each case.

Source: Excerpt from IRS Policy Statement 5-2 – Collecting Principles.

These core principles are critical to setting the appropriate tone for agency activities and
interactions with taxpayers and their representatives, especially because documentation of the
interactions is controlled by IRS personnel. To supplement agency-level mission and policy
statements, the IRS uses, and periodically updates, the Internal Revenue Manual (IRM) and


                                                                                                                   Page 4
                               Fiscal Year 2013 Statutory Review of
                           Restrictions on Directly Contacting Taxpayers



numerous taxpayer publications. Both the IRM and taxpayer publications are available online
and are designed to provide guidance nationwide to IRS personnel and taxpayers.

The IRM and taxpayer publications are important control components
From a control perspective, both the IRM and taxpayer publications are important because they
provide detailed explanations and instructions of the statutory, business, and administrative
procedures the IRS follows in administering the tax laws, including the direct contact provisions
of I.R.C. §§ 7521(b)(2) and (c). For example, the IRS uses Publication 1 as the main document
to keep taxpayers informed of their rights and to explain the audit, collection, appeals, and refund
processes. Publication 1 also includes a contact number for TIGTA, where suspected violations
of the direct contact provisions and other potential misconduct or abuse by IRS personnel can be
reported. In addition, Publication 1 includes the following information concerning taxpayers’
rights to be represented at interviews with the IRS and to suspend an interview pursuant to
I.R.C. § 7521(b)(2).
       You may either represent yourself or, with proper written authorization, have someone
       else represent you in your place. Your representative must be a person allowed to
       practice before the IRS, such as an attorney, certified public accountant, or enrolled
       agent. If you are in an interview and ask to consult such a person, then we must stop and
       reschedule the interview in most cases.
The IRS has also included information on these rights in other publications:
      Publication 17, Your Federal Income Tax.
      Publication 334, Tax Guide for Small Business.
      Publication 556, Examination of Returns, Appeal Rights, and Claims for Refund.
      Publication 3498, The Examination Process.
In addition, the IRS uses Publication 947, Practice Before the IRS and Power of Attorney, to
inform taxpayers of their representatives’ responsibilities and to notify taxpayers that the IRS has
the authority to bypass representatives who are uncooperative. Specifically, Publication 947
states:
       After a valid power of attorney is filed, the IRS will recognize your representative.
       However, if it appears the representative is responsible for unreasonably delaying or
       hindering the prompt disposition of an IRS matter by failing to furnish, after repeated
       requests, non-privileged information, the IRS can contact you directly.

A number of internal controls are also in place at the operational level
At the operational level, the first-line managers are a key control because they are responsible for
ensuring that the personnel they supervise follow procedures and that their work meets
                                                                                             Page 5
                                      Fiscal Year 2013 Statutory Review of
                                  Restrictions on Directly Contacting Taxpayers



acceptable standards. To assist managers in ensuring that procedures are followed and standards
are met, the IRM requires managers to conduct reviews over the work of the personnel they
supervise, both while it is in process and after it is completed. These control techniques, as we
have previously reported, help identify problems so prompt corrective actions can be taken.
In response to prior TIGTA reports, the IRS has taken a number of steps to reinforce upon
first-line managers the need to ensure that the personnel they supervise are adhering to the direct
contact provisions. For example, the Small Business/Self-Employed Division issued a
memorandum to its first-line managers in Fiscal Years 2001 and 2002 directing them to “take
whatever steps are necessary (including discussion in group meetings, case reviews, workload
reviews, on-the-job visits, and taxpayer/power of attorney inquiries) to ensure that these
requirements [the requirements mandated by I.R.C. §§ 7521(b)(2) and (c)] are understood and
followed by personnel.” In April 2010, May 2010, and January 2013, the IRS updated the IRM7
to include specific directions for Small Business/Self-Employed Division managers in its
Collection and Examination functions on how to ensure compliance with the direct contact
provisions of I.R.C. §§ 7521(b)(2) and (c). The guidance provided in April 2010 directed that
initial contact for audits must be made with an authorized representative. Similarly, Appeals also
provides guidance to its personnel on the requirements of I.R.C. §§ 7521(b)(2) and (c) in the
IRM.8
Besides first-line management reviews, quality measurement staffs annually review hundreds of
closed cases to measure and evaluate the quality of personnel actions, communicate areas of
concern to upper management, identify potential training needs, and improve work processes.
While these reviews do not specifically address adherence to the direct contact provisions, they
do assess the degree to which personnel are complying with procedures for protecting taxpayer
rights. For Fiscal Year 2012, the Appeals quality measurement staff reported that Appeals
personnel complied with the procedures for protecting taxpayer rights in 87 percent of the cases
reviewed.
In addition to reviews by first-line managers and the quality measurement staffs, mid-level
managers may evaluate ongoing case work during their operational reviews. Operational
reviews are generally required to be performed at least once a year to ensure that work is being
done in conformance with procedures. These processes serve as a quality control by identifying
managerial, technical, and procedural problems and providing a basis for corrective actions.




7
    IRM 4.10.2.7.1 (Apr. 2, 2010), 1.4.40.3.8.2 (May 19, 2010), and 1.4.50.3.2.1 (Jan. 25, 2013).
8
    IRM 8.6.1.2.3 (Nov. 6, 2007) and 8.6.1.3.3 (May 5, 2009).
                                                                                                    Page 6
                                    Fiscal Year 2013 Statutory Review of
                                Restrictions on Directly Contacting Taxpayers



Actions Are Needed to Provide Greater Assurance That Taxpayer
Representatives Are Included in Appeals Case Activities
A review of a statistical sample of 96 of 72,239 cases closed by Appeals between
October 1, 2011, and September 30, 2012, showed that Appeals personnel are generally
involving the power of attorneys in case activities. However, the documentation in case activity
records in the ACDS (Appeals Centralized Database System) and in the physical case files that
we were able to obtain9 did not always show that Appeals personnel adhered to procedures that
help ensure compliance with the direct contact provisions of the I.R.C. and that taxpayers obtain
appropriate and effective representation. Specifically, we identified the following conditions in
11 of the 96 cases reviewed.
        In two cases, Appeals personnel attempted to contact the taxpayer directly by telephone
         instead of contacting the representative designated on the power of attorney in the ACDS
         or Integrated Data Retrieval System. There was no evidence indicating the power of
         attorney was delaying the process or that Appeals personnel contacted their manager for
         approval to contact the taxpayer as required by direct contact provisions of the I.R.C.
        In nine cases, there was no evidence that copies of taxpayer correspondence were sent to
         the power of attorney identified on the ACDS or Integrated Data Retrieval System. For
         six of the nine cases, this occurred as part of the initial contact. IRS policy requires that
         all original correspondence be sent to the taxpayer and a copy sent to the taxpayer’s
         authorized representative, unless the taxpayer has indicated otherwise on Form 2848.
         o In four of the nine cases, neither the documentation in the hard copy case files nor the
           case activity records in the ACDS showed that copies of the taxpayer correspondence
           were mailed to the power of attorneys.
         o In five cases, Appeals personnel did not document in the ACDS case history
           narratives whether copies of taxpayer correspondence were sent to the power of
           attorneys. Although we were unable to obtain the hard copy case files for these cases,
           Appeals guidelines require that all key actions be documented in the ACDS.
When the sample results are projected to the population, we estimate that the deviations may
have negatively affected 8,277 taxpayers.10 Moreover, the deviations also leave the IRS
vulnerable to a greater risk of taxpayers seeking to recover monetary damages from the IRS if
they believe its personnel are intentionally disregarding the direct contact provisions of the I.R.C.




9
 We were able to obtain physical case files for only 30 of the 96 sample cases.
10
  We are 95 percent certain that the number of taxpayers in the population that may have been negatively affected is
between 3,654 and 12,901.
                                                                                                            Page 7
                                       Fiscal Year 2013 Statutory Review of
                                   Restrictions on Directly Contacting Taxpayers



Managers could hold Appeals personnel more accountable for involving power of
attorneys in all case activities
A review of feedback from the Appeals quality measurement staff showed that they too reported
concerns with Appeals personnel not always providing copies of taxpayer correspondence to the
power of attorneys. Narrative comments stating that copies of letters were not provided to the
power of attorneys were made by quality reviewers in 42 of 1,646 reviews.
During this review, we evaluated Fiscal Year 2012 performance feedback provided by first-line
managers to a judgmental sample11 of seven Appeals personnel involved in our case reviews,
along with seven operational reviews conducted by the mid-level managers over those Appeals
groups. Results showed that general taxpayer rights were addressed in nearly all of the
managerial reviews. However, none of the reviews conducted by first-line managers or the
mid-level managers addressed the importance of adhering to the procedures governing the direct
contact provisions of the I.R.C.
Performance feedback can be a very effective tool in helping personnel understand and meet
their responsibilities. It also provides opportunities to give meaningful and constructive
feedback on performance, pinpoint and address performance gaps, and hold personnel
accountable for following management directives and delivering results. As the following
excerpt from the United States Merit Systems Protection Board report to the President and
Congress summarizes, continually monitoring and providing feedback to personnel is a critical
component of performance management.
           This component, more than any other, can give employees a sense of how they are doing
           and can motivate them to be as effective as possible. Ideally, through these ongoing
           interactions between employees and supervisors, employees learn how their work fits into
           the goals of the work unit and how it contributes to the larger mission of the agency.
Managerial reviews over Appeals personnel’s adherence to IRS direct contact procedures, and
documentation of such reviews, are important and need to be enhanced. They are the IRS’s
primary quality control mechanism and can provide greater assurances that taxpayers are being
afforded their right to appropriate and effective representation.

Recommendation
Recommendation 1: The Chief, Appeals, should provide additional guidance to first-line
managers and Appeals personnel that will reinforce the importance of ensuring that taxpayer
representatives are involved in all case activities. This will help ensure that the procedures
designed to afford taxpayers their right to appropriate and effective representation are followed
and properly documented during the appeals process.


11
     A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 8
                       Fiscal Year 2013 Statutory Review of
                   Restrictions on Directly Contacting Taxpayers



Management’s Response: IRS management agreed with the recommendation. The
IRS plans to update the IRM to clarify front-line managers’ responsibilities to ensure that
procedures regarding the direct contact provisions of the I.R.C. are followed and
reinforce the importance of ensuring that representatives are involved in all case
activities.




                                                                                    Page 9
                                      Fiscal Year 2013 Statutory Review of
                                  Restrictions on Directly Contacting Taxpayers



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with legal
guidelines addressing the direct contact of taxpayers and their representatives as set forth in
I.R.C. Sections (§§) 7521(b)(2) and (c). To accomplish this objective, we:
I.         Determined if an IRS system and/or process has been implemented since our last review
           to identify those cases where taxpayers have requested to consult with a representative or
           where IRS personnel bypassed a representative and directly contacted the taxpayer.
           A. Interviewed IRS management personnel in the Small Business/Self-Employed
              Division to identify whether the IRS has implemented a system to identify those cases
              where taxpayers have requested to consult with a representative or where IRS
              personnel bypassed a representative and directly contacted the taxpayer.
           B. Reviewed a random statistical sample of 96 of 72,239 Office of Appeals (Appeals)
              cases that were closed between October 1, 2011, and September 30, 2012, for
              taxpayers with a power of attorney identified on the ACDS to determine whether
              Appeals personnel were complying with the requirements of the I.R.C. Our sample
              size was based on a 95 percent confidence level, ± 5 percent precision, and 5 percent
              expected error rate. Our contract statistician concurred with our sample size and
              projection of our results to the population.
               1. Obtained the Appeals data from the ACDS files maintained on TIGTA’s Data
                  Center Warehouse using the time period noted in Step I.B. and the representative
                  ID field on the system.
               2. Validated the Appeals cases by sharing our data extract with the IRS and
                  receiving its confirmation that we extracted the correct cases for the time period
                  specified. We determined that the data were sufficiently reliable for purposes of
                  this report.
               3. Evaluated the documentation recorded systemically and by Appeals personnel in
                  the ACDS to make our judgments about each case. We also compared the power
                  of attorney information in the ACDS to the power of attorney information the IRS
                  maintains in each taxpayer account on the Integrated Data Retrieval System.1




1
    See Appendix VI for a glossary of terms.
                                                                                              Page 10
                                       Fiscal Year 2013 Statutory Review of
                                   Restrictions on Directly Contacting Taxpayers



           C. Evaluated 51 case and workload reviews and seven performance reviews the first-line
              managers conducted of a judgmental sample2 of seven Appeals personnel associated
              with our 96 sample cases, along with seven operational reviews mid-level managers
              performed over the same Appeals groups to see the type of feedback provided to
              Appeals personnel concerning taxpayer rights and the direct contact provisions of
              I.R.C. §§ 7521(b)(2) and (c). A judgmental sample was used because we were trying
              to determine whether managers were addressing the direct contact provisions of the
              I.R.C. in their reviews and had not intended to project the results to the population.
II.        Determined if any systems or processes have been modified since our last review to track
           taxpayer complaints relating to IRS violations of I.R.C. §§ 7521(b)(2) and (c).
           A. Interviewed IRS personnel responsible for the Taxpayer Advocate Management
              Information System and the e-trak System to determine if these two systems have
              been modified to track taxpayer complaints related to IRS violations of
              I.R.C. §§ 7521(b)(2) and (c).
           B. Interviewed IRS management personnel in the Taxpayer Advocate Service to
              determine if the IRS plans to implement a system or process for tracking complaints
              arising from violations of I.R.C. §§ 7521(b)(2) and (c).
           C. Reviewed the TIGTA Office of Investigation’s complaint and investigation cases
              closed in Fiscal Year 2012 and tracked on the Performance and Results Information
              System to identify what actions the IRS had taken on subject personnel, as well as the
              number of taxpayers who may have had their rights and entitlements infringed upon.
III.       Obtained and reviewed information on the actions taken by the IRS in response to
           I.R.C. §§ 7521(b)(2) and (c) to determine the impact of this code section on IRS
           programs.
           A. Reviewed the prior TIGTA reports3 to identify recommendations and the IRS’s
              planned corrective action.
           B. Conducted searches on the IRS intranet to identify guidance to IRS and Appeals
              personnel for meeting the direct contact provisions and determined the impact on IRS
              programs.
           C. Researched IRS.gov to identify how the IRS informs taxpayers of the IRS’s
              prohibition on directly contacting taxpayers and evaluated whether it provides
              adequate guidance for taxpayers and their representatives.



2
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
3
    See Appendix V for a list of previous audit reports related to this review.
                                                                                                               Page 11
                               Fiscal Year 2013 Statutory Review of
                           Restrictions on Directly Contacting Taxpayers



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective:
      Agency-level internal control activities:
       a. The IRS’s mission statement, the Appeals mission statement, and supporting policy
          statements along with the IRM guidelines provide guidance to IRS and Appeals
          personnel to ensure compliance with direct contact provisions.
       b. Numerous publications that keep taxpayers informed of their rights.
      Operational-level internal control activities:
       a. First-line managers are responsible for ensuring that the personnel they supervise
          follow procedures and that their work meets acceptable standards. They will need to
          review the work of the personnel they supervise, both while it is in process and after
          it is completed, which will help identify problems so prompt corrective actions, if
          needed, can be taken.
We evaluated these controls by reviewing the performance feedback first-line managers provided
to a judgmental sample of seven Appeals personnel through case and workload reviews, and
performance reviews concerning taxpayer rights and the direct contact provisions of
I.R.C. §§ 7521(b)(2) and (c). In addition, we evaluated the feedback provided in seven
operational reviews performed by mid-level managers over the same Appeals groups.




                                                                                         Page 12
                             Fiscal Year 2013 Statutory Review of
                         Restrictions on Directly Contacting Taxpayers



                                                                            Appendix II

                Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Michelle Philpott, Acting Director
Alan Lund, Audit Manager
Jean Kao, Lead Auditor
Mike Della Ripa, Senior Auditor
David Hartman, Senior Auditor




                                                                                    Page 13
                             Fiscal Year 2013 Statutory Review of
                         Restrictions on Directly Contacting Taxpayers



                                                                            Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CSO
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Appeals AP
       Commissioner, Small Business/Self-Employed Division SE:S
       National Taxpayer Advocate TA




                                                                                    Page 14
                                   Fiscal Year 2013 Statutory Review of
                               Restrictions on Directly Contacting Taxpayers



                                                                                    Appendix IV

                                    Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 8,277 taxpayers where Appeals personnel may
    not have appropriately involved the power of attorney during the Appeals process
    (see page 7).

Methodology Used to Measure the Reported Benefit:
We calculated our outcome for the Appeals exception cases using the following methodology:
           We reviewed a statistically valid sample of 96 of the 72,239 cases closed by Appeals
            between October 1, 2011, and September 30, 2012, in which the ACDS showed a power
            of attorney was involved.
           We reviewed a statistically valid sample of 96 of the 72,239 cases based on a 95 percent
            confidence level, ± 5 percent precision, and 5 percent expected error rate.
           We identified 11 cases where Appeals personnel did not follow the procedures that help
            ensure compliance with the direct contact provisions of the I.R.C.
           Based on our sample error rate (11/96), we calculated the number of taxpayers in the
            population that may have had their ability to obtain appropriate and effective
            representation negatively affected: [72,239 x (11/96) = 8,277]. We are 95 percent
            confident that the number of taxpayers in the population that may have been negatively
            affected will be between 3,654 and 12,901.
        




                                                                                             Page 15
                             Fiscal Year 2013 Statutory Review of
                         Restrictions on Directly Contacting Taxpayers



                                                                             Appendix V

    Previous Audit Reports Related to This Statutory
                        Review

TIGTA, Ref. No. 1999-10-076, The Internal Revenue Service Needs to Enhance Guidance on
and Monitoring of Compliance With Procedures for Directly Contacting Taxpayers and Their
Representatives (Sept. 1999).
TIGTA, Ref. No. 2000-10-132, Letter Report: Improvements Have Been Implemented for
Directly Contacting Taxpayers and Their Representatives (Sept. 2000).
TIGTA, Ref. No. 2001-10-116, Letter Report: The Internal Revenue Service Has Not
Implemented a Process to Monitor Compliance With Direct Contact Provisions (Jul. 2001).
TIGTA, Ref. No. 2002-40-177, The Internal Revenue Service Cannot Monitor Its Compliance
With the Direct Contact Provisions (Sept. 2002).
TIGTA, Ref. No. 2003-40-131, Fiscal Year 2003 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Jun. 2003).
TIGTA, Ref. No. 2004-40-059, Fiscal Year 2004 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Feb. 2004).
TIGTA, Ref. No. 2005-40-040, Fiscal Year 2005 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Feb. 2005).
TIGTA, Ref. No. 2006-40-136, Fiscal Year 2006 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Aug. 2006).
TIGTA, Ref. No. 2007-40-118, Fiscal Year 2007 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Jul. 2007).
TIGTA, Ref. No. 2008-40-090, Fiscal Year 2008 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Mar. 2008).
TIGTA, Ref. No. 2009-30-054, Fiscal Year 2009 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Mar. 2009).
TIGTA, Ref. No. 2010-30-060, Fiscal Year 2010 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Jun. 2010).
TIGTA, Ref. No. 2011-30-090, Fiscal Year 2011 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Sept. 2011).

                                                                                     Page 16
                             Fiscal Year 2013 Statutory Review of
                         Restrictions on Directly Contacting Taxpayers



TIGTA, Ref. No. 2012-30-089, Fiscal Year 2012 Statutory Review of Restrictions on Directly
Contacting Taxpayers (Sept. 2012).




                                                                                     Page 17
                               Fiscal Year 2013 Statutory Review of
                           Restrictions on Directly Contacting Taxpayers



                                                                                   Appendix VI


                                Glossary of Terms

Centralized Authorization File – Contains information about the type of authorizations
taxpayers have given their representatives for their tax returns.
E-trak System – An IRS web-based data tracking application that enables meaningful data
management, tracking, retrieval, and reporting.
Integrated Data Retrieval System – IRS computer system capable of retrieving or updating
stored information. It works in conjunction with a taxpayer’s account records.
Internal Revenue Manual – The single official source for IRS policies, directives, guidelines,
procedures, and delegations of authority in the IRS.
Performance and Results Information System – A management information system that
provides TIGTA with the ability to manage complaints received and investigations initiated.
Taxpayer Advocate Management Information System – A database of the Taxpayer
Advocate Service that is exclusively dedicated to the recordation, control, and processing of
Taxpayer Advocate Service taxpayer cases and to the capturing and analysis of core tax issues,
laws, policies, and internal IRS functional processes that are the sources of significant taxpayer
hardship and other critical problems.
United States Merit Systems Protection Board – An independent, quasi-judicial agency that
oversees and adjudicates the application of merit system principles within the Executive Branch.
 




                                                                                            Page 18
             Fiscal Year 2013 Statutory Review of
         Restrictions on Directly Contacting Taxpayers



                                                  Appendix VII

Management’s Response to the Draft Report




                                                         Page 19
    Fiscal Year 2013 Statutory Review of
Restrictions on Directly Contacting Taxpayers




                                                Page 20
